   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



June 20, 2011

Report Number: A-07-10-00345

Ms. Sandra Miller
Senior Vice President and President, Federal Government Solutions
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Georgia for Fiscal Years 2001 Through 2005. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00345
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandra Miller

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




 REVIEW OF PENSION COSTS CLAIMED
  FOR MEDICARE REIMBURSEMENT BY
BLUE CROSS BLUE SHIELD OF GEORGIA
FOR FISCAL YEARS 2001 THROUGH 2005




                         Daniel R. Levinson
                          Inspector General

                             June 2011
                           A-07-10-00345
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices




       THIS REPORT IS AVAILABLE TO THE PUBLIC

                         at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and any
other conclusions and recommendations in this report represent the findings
and opinions of OAS. Authorized officials of the HHS operating divisions will
make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Georgia (BCBSGA) administers Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).
BCBSGA merged with WellPoint Health Network, Inc. (WHN), and, effective May 31, 2001,
BCBSGA’s pension plan assets from the Non-Contributory Retirement Program were merged
into WHN’s Pension Accumulation Plan. In turn, WHN became a part of Anthem, Inc.
(Anthem), on November 30, 2004, and at that time Anthem changed its name to WellPoint, Inc.
(WellPoint). On June 30, 2006, the Pension Accumulation Plan assets were merged into
WellPoint’s Cash Balance pension plan.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that BCBSGA claimed for
Medicare reimbursement for fiscal years (FY) 2001 through 2005.

SUMMARY OF FINDINGS

BCBSGA claimed $617,723 of unallowable Medicare pension costs for FYs 2001 through 2005.
This overclaim occurred because BCBSGA based its claim for Medicare reimbursement on an
amount that did not comply with the provisions of CAS 412 and 413. BCBSGA claimed pension
costs of $754,972 for Medicare reimbursement; we determined that the allowable CAS pension
costs were $137,249, a difference of $617,723.

RECOMMENDATIONS

We recommend that BCBSGA:

   •   reduce its Final Administrative Cost Proposals by $617,723 or refund this amount to
       CMS and

   •   ensure that future pension costs are claimed in accordance with the Medicare contracts.




                                                i
AUDITEE COMMENTS

In written comments on our draft report, National Government Services (NGS) concurred with
our finding and recommendations. BCBSGA’s Medicare contract was transitioned to NGS
effective November 11, 2006; therefore, NGS responded to our draft report.

While concurring with our finding and recommendations, NGS also suggested a revision to one
portion of the background material in the report.

NGS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we determined that the suggested revision does not
enhance the clarity or accuracy of this report. Therefore, we did not incorporate NGS’s
suggested revision into this report.




                                             ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Blue Cross Blue Shield of Georgia ..................................................................... 1
              Medicare Reimbursement of Pension Costs ....................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope ................................................................................................................... 2
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ........................................................................... 2

          FEDERAL REQUIREMENTS ....................................................................................... 3

          UNALLOWABLE PENSION COSTS CLAIMED ....................................................... 3

          RECOMMENDATIONS ................................................................................................ 4

          AUDITEE COMMENTS................................................................................................ 4

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 4

APPENDIXES

          A: ALLOWABLE MEDICARE PENSION COSTS FOR BLUE CROSS BLUE
             SHIELD OF GEORGIA FOR FISCAL YEARS 2001 THROUGH 2005

          B: AUDITEE COMMENTS




                                                                     iii
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Georgia

Blue Cross Blue Shield of Georgia (BCBSGA) administers Medicare Part A operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).
BCBSGA merged with WellPoint Health Network, Inc. (WHN), and, effective May 31, 2001,
BCBSGA’s pension plan assets from the Non-Contributory Retirement Program were merged
into WHN’s Pension Accumulation Plan. In turn, WHN became a part of Anthem, Inc.
(Anthem), on November 30, 2004, and at that time Anthem changed its name to WellPoint, Inc.
(WellPoint). On June 30, 2006, the Pension Accumulation Plan assets were merged into
WellPoint’s Cash Balance pension plan.

Effective November 11, 2006, a consolidation of certain Medicare operations occurred, forming
a new subsidiary of WellPoint called National Government Services (NGS). This consolidation
included the BCBSGA Medicare segment, which was maintained separately from other
Medicare operations. Thus, although we are addressing this report to NGS, we will associate the
term BCBSGA with our findings and recommendations regarding the pension costs claimed for
the Pension Accumulation Plan for fiscal years (FY) 2001 through 2005.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that BCBSGA claimed for
Medicare reimbursement for FYs 2001 through 2005.




                                                1
Scope

We reviewed $754,972 of pension costs that BCBSGA claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 2001 through 2005. Achieving our
objective did not require that we review BCBSGA’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at BCBSGA’s office in Atlanta, Georgia, during September 2009.

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed BCBSGA’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 2001 through 2005. We also determined the extent to which BCBSGA
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on BCBSGA’s historical practices and on the results of our
segmentation review (Review of the Pension Segmentation Requirements at Blue Cross Blue
Shield of Georgia for the Period January 1, 2001, to June 30, 2006, A-07-10-00344).

In performing our review, we used information that BCBSGA’s actuarial consulting firms
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined BCBSGA’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

BCBSGA claimed $617,723 of unallowable Medicare pension costs for FYs 2001 through 2005.
This overclaim occurred because BCBSGA based its claim for Medicare reimbursement on an
amount that did not comply with the provisions of CAS 412 and 413. BCBSGA claimed pension
costs of $754,972 for Medicare reimbursement; we determined that the allowable CAS pension
costs were $137,249, a difference of $617,723.




                                               2
FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE PENSION COSTS CLAIMED

BCBSGA claimed $617,723 of unallowable Medicare pension costs for FYs 2001 through 2005.
During this period, BCBSGA claimed pension costs of $754,972 for Medicare reimbursement.
We calculated allowable pension costs based on separately computed CAS pension costs for the
Medicare segment and the “Other” segment in accordance with CAS 412 and 413. We
determined that the allowable CAS pension costs for this period were $137,249.

The following table compares allowable CAS pension costs with the pension costs claimed on
BCBSGA’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                    Medicare Pension Costs
                                    Allowable    Claimed by
                 Fiscal Year        Per Audit     BCBSGA              Difference
                    2001                $90,051      $186,498            ($96,447)
                    2002                 35,527       153,169            (117,642)
                    2003                  8,808       222,994            (214,186)
                    2004                  2,482       132,582            (130,100)
                    2005                    381        59,729             (59,348)
                    Total             $137,249       $754,972           ($617,723)

The Medicare contracts require BCBSGA to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, BCBSGA based its claim for Medicare reimbursement
on an amount that did not comply with the provisions of CAS 412 and 413. As a result,
BCBSGA claimed $617,723 of unallowable pension costs.


                                                3
RECOMMENDATIONS

We recommend that BCBSGA:

   •   reduce its FACPs by $617,723 or refund this amount to CMS and

   •   ensure that future pension costs are claimed in accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our finding and recommendations.

While concurring with our finding and recommendations, NGS also suggested that the accuracy
and clarity of this report would be enhanced if one passage in the background section (page 1)
were to be revised as follows: “This report is being addressed to National Government Services,
Inc. (NGS) since the BCBSGA Medicare contract was terminated and transitioned to a Medicare
Administrative Contractor effective May 4, 2009. NGS is a subsidiary of WellPoint and
manages the administration of the organization’s existing Medicare government contract work”.

NGS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s written comments, we determined that the suggested revision does not
enhance the clarity or accuracy of this report. Therefore, we did not incorporate NGS’s
suggested revision into this report.




                                               4
APPENDIXES
                                                                                                                                                                                         Page 1 of3

                                              APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR 

                                                      BLUE CROSS BLUE SHIELD OF GEORGIA 

                                                      FOR FISCAL YEARS 2001 THROUGH 2005 


                                                                                        Total                        "Other"                        Medicare                         Total
        Date                                Description                                Company                       Segment                        Segment                         Medicare
                                                             ~'Y"m'~"_~"~~~_~~'~~0pv,",_~~~""'''n~,"'~'"~,"~,="''"'''=~~~""~~"""             ;v.~~~~~"~,","",,,"",,~",~~   '''"},

        2001                Contributions                                     lLl       $13,021,263 I  $13,021,263                                                  $0        I

       9.99% ~~ll~I1,!~~oEJ!!!~~rest ,~~_",~~~~.~,~,~.~~......._,,~!.1                    ($931,618)'··· ($931,618)                                                 $0 

  January I, 2001       !present Value Contributions                          JLI       $12,089,645    $12,089,645                                                  $0 


"~~-}~~?iht5¥}" ':~~~~~~~i~~;~~:~~~~j:~~~r""                                             $4, ~;~~r~i                  "$4:~~~~~§~""~~"-"'$72~:i~'j~
       9.00%            'Discount for Interest                                6/1         ($178,131)                   ($175,511)                           ($2,620)          i

                        :Present Value of Funding                             1J.1      $16~692,594                  $16,622,264                            $70,330

   January 1,2001 	 CAS FundingTarget                                         ~.l        $4,617,657                   , $4,547,327                          $70,330
                     Percentage Funded                                        9/                                           100.00%                          100.00% 

                     Funded Pension Cost                                     IQlL                                     $4~~~z.,l2)                           $?(),~330 

                     Allowable Interest                                      III                                         $273,836                             $2,620

                     Allocable Pension 	                                 ·····i2;1
                                                                          ,~~~l
                                                                                                         ·!         ... _~~,821,163                      .. E~,~?9         .+
        2001        ,Fiscal Year Pension Cost                                13/                                       $3,615,872                          $54,713
          .~~..~~..._JM~.c!ic.a.re LO~*P~rcentage ...                        1411                                         0.9773%                        100.0000%

                                                                                                                           $35,338                          $54,713                    $90,051

       2002
          ,   "'~,~,
                         Contributions                                                  $1~!~~!??~.~ .. i             .~1.6!9~41??4.. 
                             $0
      8.00%              Discount for Interest                                          ($1,200,302) I                ($1,200,302)                                  $0 

  January 1,2002        IPresent Value Contributions                                    $15,744,25~                   $15,744,252                                   $0 

                        iPrepayment Credit Applied                                      $12,371,090                   $12,371,090                                   $0 

                        i~resent Value of Funding                                       $~8,!}5,342                   g~!15,}42                                     $0 


   January!, ~002 	 iCAS FundingTarget                                                  $12,371,090                   $12,~?IJ090                                  $0 

                    I Percentage Funded                                                                                    100.00%                              0.00% 

                    'Funded Pension 
                                                                                                                              $0
                    .Allowable Interest 
                                                                                                                          $0
                    iAllocable Pension Cost 
                                                                       ,J! 2!}.71!()'~9 ... r                         $0
       200i~'~'~'lFi~~;1 YearP~~sion Cost                                                                             $10,483,608                           $18,~~8
                        jMedicare LOB*       Per~entage                                                                   0.1654%                          99.7208%
                                                                                                                                          ~·~~T




                            Allowable Pension Cost 	                                                                       $17,340                          $18,187                    $35,527
                       'j



         2003           iContributions                                                  $25,634,926                  .g?,~3.4,926                                   $0 

        7.50%            ;Discount for Interest                                         ($1,726,781)                  ($1,726,781)                                  $0 

   Janllary 2003         lresent Value Contributions                                    ~~3!9(),8J.!45                $23,908,145                                   $0 

                         •Prepayment Credit Applied                                     $21,350,609                   $21,350,609                                   $0 

      .........___ ..... YJ(!~el1t Val1l(!()!.Funding .. 
                                                            $45,258254 	                                  $0

   J(\l1l1aryl!~09} 	 . ~~.~Xlll1ding Target                                            $~}~350,609                   $21,350,609                           $0
                        iPercentage Funded                                                                                     100.00%                 0.00%
                        [Funded Pension Cost
                        l""""
                                                                                                                    ._.~~~.1!~350?609 	                     $0 i
                        iAllowable Interest                                                              .... t-I_-:::-:--:-:-:-:-:.:;$-:-0---+_ _ _ _----'$::-:0:..-,··i
                        iAllocable Pension Cost                                                             "li~      $21, 35 9,609                         $0
        2003             i Fiscal Year Pension Cost                                                                    $19,105,729                          $0
                                                                                                                              0.0461%               99.4579% '

                            Allowable Pension Cost 	                                                                         $8,808                                 $0                  $8,808
                                                                                                                                                                                                                                                                             Page 2 of3




                                                                                                                                                                                                       "Other"                          GBA Medicare                     Total
             Date                                                           Description                                                                                                                Segment                            Segment

             2004 

                                                 nt for Interest 

                                                    HhN'H_' _ _       ~   __             ~'"_"~~"




                                                t Value Contributions 

                                                                Al'l'li(!d 

                                 +        . s(!J.l!.yalu(!.()fJ1unding __ ..
                                 ""1         ~~_ '"., M"N,"",~uuu~m   " ' " ' " _ " ,­



     January          2004 	 IGA~XtlJ.l~iJ.lg.1'llrget                                                                                                                                 $0                                                                         $0
                                                                                                                                                                                                       ·· . ·········..!Ql·
                              Percentage Funded......... ............. .......................~. . 	                                                                           ........~ .....
                                                                                                                                                                                                                0.00%
                                                                                                                                                                                                  -------,-$O------$.,...O~
                                                                                                                                                                                                                                                               0.00% 

                              Funded Pension
                                   ;Allowable Interest.~.~..................................... 
                                                                                                               $0                                    $0
                                    Allocable Pension.~.::::-.: ......_._... .... .... . ..                                                                                                                     $0 	                        __
                                                                                                                                                                                                                                         "····~~
                                                                                                                                                                                                                                                      $0
                                                                                                                                                                                                                                                   ~~H."··r_




             2004                   Fiscal Year Pension Cost                   ""'"       '"-,~'".   "'"   ,"'No"'   '"#~   _ _ _ ••
                                                                                                                                                                                                      .$5,337,652 	                                   $0 .
                                   !Medicare LOB· Per(;(!E!<lg(!_....... 
                                                                                                                                 0.0465%                       ..... 99:577"1%"·T

                                   ·Allowable Pension Cost
                              .,,"' t'"o..-.---,~~""~--,,--.".-~"••.
                                   i
                          ~~-.---~.
                                Contributions
                               !...-
                            . .+     ....•..     --.-.~           ............... 

         7.50%                 jDiscount for Interest
     January.. 1,200I·=IPr(!st:J.ltylll~~G~~!rib~tions                                                                                                            "__._.. . ~. 1~,,?IZ~_~~9      nl   .-~4.~.:..~112iQ._. . ...1"""._
                    ._J~~l'!l~eJ.l!.f!:.~lt.. Appli(!~... 
                                                                                                              $5,079,557                      $5,079,557                 j



                               l~.!(!st:n!YIl!t1~ ofJ1unding                                                                                                         ...~1.8,657,427..~... .J~~1.~.g1~71-.. 

                    ..•.•... l  ~--          ....................-- .. . 	                                                                                                              L~                ..............
                                                                                                                                                                                                            -.~ L.. 
          ..
     JlII1uaryl,~Q05 	 . CAS Funding Targ(!t_.... _ ..                                                                                                                   $5?079,5~7 .            $5,079,557'                             $0
                               · ~ercentage                                                                                                                                                       I   100.00%                         0.00% i
                                                                                                                                                                          - - - · ' ; ' 1-----:;$:-::5-::,0-=79::-,-=-55:-::7:--:------=$0::----i
                          . '1 Funded Pension

                                       Allowable Interest ............................._........................_.... 
                                                                                          $0                                              $0



                         ~~~i~
                                                                                                                                                                                                         $5,079,557                                              $0
                                                                                                                                                                                                      ~,809,668
             2005                                                                                                           _.. . . . . . . . . . . . . . . . .
                                                                                                                                                              j . _ . _•........ 
                            0.0100% 	

                                   ·Allowable Pension Cost 
                                                                                                                                                                                                                 $381



     * Line of business.
FOOTNOTES

li   We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The contributions
     included deposits made during the plan year and accrued contributions deposited after the end of the plan year but within the time allowed for filing
     tax returns. We determined the contributions allocated to the Medicare segments during the pension segmentation review (A-07-1O-00344). The
     amounts shown for the "Other" segment represent the difference between the Total Company and the Medicare segment.


Y. We subtracted the interest that was included in the contributions deposited after the beginning ofthe valuation year to discount the contributions back
     to their beginning-of-the-year value. For pU!poses of this Appendix, we computed the interest as the difference between the present value of
     contributions (at the valuation interest rate) and actual contribution amounts.

y. The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the plan year. For 

     pU!poses of this Appendix, we deemed deposits made after the end of the plan year to have been made on the final day of the plan year, consistent 

     with the method mandated by the Employee Retirement Income Security Act. 


1L A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when
     contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A prepayment credit is carried forward, with
     interest, to fund future CAS pension costs. This prepayment credit was from the Non-Contributory Retirement Plan ofBCBSGA and was available
     for use on January 1,2001.
                                                                                                                                                      Page 3 of3

 2i. Effective May 31, 2001, the Non-Contributory Retirement Program ofBCBSGA pension assets merged into the WellPoint Health Network, Inc.,
      Pension Accumulation Plan. As of the merger date, the Pension Accumulation Plan pension plan assets contained a prepayment credit balance. A
      portion ofthe Pension Accumulation Plan prepayment credit balance was transferred to the BCBSGA Medicare segment to fund the remaining
      assignable pension costs in 2001.

 QL 	 We subtracted the interest that was included in the prepayment credit applied on June 1,2001, to discount the prepayment credit back to its
      beginning-of-the-year value. We computed the interest by multiplying the prepayment credit applied on June 1,2001, by the valuation interest rate.

 11. The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is available to
      cover the CAS funding target measured at the first day of the plan year.

 ~    The
       	  CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal Acquisition Regulation
      (FAR) 31.205-6U)(2)(i).

 9.L 	 The percentage of costs funded is a measure ofthe portion of the CAS funding target that was funded during the plan year. Because any funding in
      excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(l) (as amended), the funded ratio may not
      exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
      illustration, the percentage of funding has been rounded to six decimals.

101 We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

ill   We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the interest on contributions
      bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6U)(2)(iii), which does not permit the
      allowable interest to exceed the interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
      installments deposited within 30 days after the end of the quarter.

121 The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

131 	We converted the plan year (January I through December 31) allocable pension costs to a fiscal year (FY) basis (October I through September 30).
     We calculated the FY pension costs as 114 of the prior year's costs plus 3/4 of the current year's costs. Our prior review (A-07-07-00237, issued
      November 16, 2007) covered costs through calendar year 2000; therefore, to calculate the FY 200 I allocable pension costs, we calculated the FY
      pension costs as 3/4 of the calendar year 2001 costs.

141 	 We calculated allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB) percentage of each
      segment. We determined the LOB percentages based upon information provided by Blue Cross Blue Shield of Georgia.

151 	We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB percentage. Pursuant to CAS 412 and
      413, the total Medicare allowable pension costs charged to the Medicare contract consisted ofthe Medicare segment's direct pension costs plus
      "Other" segment pension costs attributable to indirect Medicare operations.
                                                                                                           Page 1 of 2



                           APPENDIX B: AUDITEE COMMENTS 





                                                                                    Medicare
Nltiunal Government ~rYices. Inc.
WW"f'I(.NGS.MedinreoC(')m



June 2, 2011

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General, Region VII
601 East 12th Street, Room 0429
Kansas City, Missouri 64106

Reference: Report Number A-07-10-00345

Dear Mr. Cogley:

We have received the draft audit report from the Inspector General entitled "Review of Pension Costs
Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Georgia for Fiscal Years 2001
ThrQugh 2005" and thank you for the opportunity to respond.

We concur with the tindingand related recommendation outlined in the report. We believe the
accuracy and clarity of the report would be enhanced with the adoption of the following proposed
revision:

     • 	 In the "Introduction" section (page 1) within the "'Background" caption, please replace the 2nd
         paragraph with the following:

         This report is being addressed to National Government Services, Inc. (NGS) since the BCBSGA
         Medicare contract was terminated and transitioned to a Medicare Administrative Contractor
         effective May 4, 2009. NGS is a subsidiary of WellPointand manages the administration of the
         organization's existing Medicare government contract work.

We appreciate the opportunity to respond to this draft report. If you have any further .questions, I can
be reached at 414-459-5606 or via email attodd.reiget@weIlpoint.com.

Sincerely,
                                    Oigitally 5i9OO0 by Todd W. Rtlger 

                                    ON: en'"'TOdd W. Rt,lgef. osNltional 

                                    r,oye'~t s.tViC~, II".. ou-f':inan(t.      

                                    email;;:i.tOdd.reIger~tllpoinl.tOm.   ,.u,S 

                                    Date::WI 1,0.6.01 0$:58:48 .OS'OO'

Todd W. Reiger, CPA
Chief Financial Officer, Medicare Operations

                                                                                          CAlsJ
                                        Page 2 of 2




June 2, 2011
Page 2 of2

cc: 	          Sandy Miller
               Michael Kapp
               Jeff Hannah
               Wendy Perkins
               Joanne Imel- WellPoint
               Jenenne Tambke - OIG
